The Department of Justice Office of the Inspector General (OIG) today released a report on the
Status of the Federal Bureau of Investigation’s (FBI) Sentinel Program. This report is the OIG’s
tenth report on Sentinel, the FBI’s electronic information and case management system, since
its development began in 2006. In the report released today, the OIG examined Sentinel’s
effect on the FBI’s daily operations, while also reviewing Sentinel’s project costs and updates
made to the program since it was deployed in July 2012. FBI employees we surveyed for this
report reported that Sentinel has had an overall positive impact on their work, though we also
found a few areas of concern.

The OIG’s audit found that most FBI employees routinely used Sentinel to perform their daily
investigative activities. The majority of FBI employees responding to the OIG’s survey,
conducted during the audit, reported that Sentinel has had an overall positive impact on the
FBI’s operations, making the FBI better able to carry out its mission, and better able to share
information. Sentinel users surveyed did, however, express dissatisfaction with two major
functions of Sentinel: search and indexing.

Sentinel’s search function is intended to provide users the capability to locate cases and specific
case-related information within Sentinel. According to a July 2012 FBI report, the search
function is both flexible and powerful enough to accommodate the substantial volume and wide
variety of information available for retrieval in Sentinel. However, the OIG found that only
42 percent of the respondents to our survey who used Sentinel’s search functionality often
received the results they needed. The FBI told us that it recognized the need to improve
Sentinel’s search function and stated that updates have since been made to improve it. The
OIG has not assessed the impact of these updates.

The purpose of the indexing function is to designate, modify, and delete the relationship
between any two identifiers, such as the relationship between a person and that person’s
address. Based upon our fieldwork and survey results, the OIG found that users’ primary
concern with Sentinel’s indexing function was the amount of administrative burden placed on
the author of a document because the author is also responsible for indexing the
document. Forty-one percent of survey respondents reported that they spent more time
indexing in Sentinel than they did in the FBI’s Automated Case Support system, the system that
Sentinel replaced. A majority of the Special Agents surveyed reported that Sentinel actually
decreased their daily productivity and attributed this to the increased administrative burden
posed by indexing, which has left them with less time for investigative activities.

Over a third of the survey respondents also reported that Sentinel was missing features that
they believed are critical to their duties, including features related to Sentinel’s integration with
other FBI IT systems. We also found that although respondents were generally satisfied with
the job-specific training and other resources the FBI offered, the majority of Special Agents and
Supervisory Special Agents reported dissatisfaction with the availability of technical and policy-
related support after the deployment of Sentinel.

The total budget for Sentinel since the initial deployment in July 2012 has increased from
$451 million to $551.4 million. This increase is the result of operations and maintenance during
FYs 2013 and 2014, and the development of new functionalities during FY 2014.
The report released today made three new recommendations to help the FBI ensure that its
business processes are aligned with Sentinel’s design and functionalities, and that Sentinel’s
search and index functions efficiently meet the needs of its employees. The FBI agreed with all
three recommendations.

The report can be found on the OIG’s website
at: http://www.justice.gov/oig/reports/2014/a1431.pdf.
